         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report



       Summary of Recent Developments
       in EPA’s Drinking Water Program
       and Areas for Additional Focus

       Report No. 08-P-0120

       March 31, 2008
Report Contributors:	              Michael Wagg
                                   Alicia Mariscal
                                   Ira Brass
                                   Dan Engelberg




Abbreviations

ASDWA         Association of State Drinking Water Administrators
CCL           Contaminant Candidate List
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
GAO           Government Accountability Office
NDWAC         National Drinking Water Advisory Council
OECA          Office of Enforcement and Compliance Assurance
OGWDW         Office of Ground Water and Drinking Water
OIG           Office of Inspector General
ORD           Office of Research and Development
PWSS          Public Water System Supervision
SCADA         Supervisory Control and Data Acquisition
SDWA          Safe Drinking Water Act
SDWIS         Safe Drinking Water Information System
SWP           Source Water Protection
UIC           Underground Injection Control




Cover photo: Several children drinking water (EPA photo).
                        U.S. Environmental Protection Agency                                               08-P-0120 

                        Office of Inspector General                                                    March 31, 2008





                        At a Glance

                                                                         Catalyst for Improving the Environment

Why We Did This Review                Summary of Recent Developments in EPA’s Drinking
We conducted a review of the          Water Program and Areas for Additional Focus
U.S. Environmental Protection
Agency’s (EPA’s) drinking             What We Found
water program at the request of
its Office of Ground Water and        OGWDW addressed or is addressing all of the EPA OIG drinking water
Drinking Water (OGWDW) to:            program-related evaluation report recommendations made from September 2003
• Summarize findings and              to May 2007. OGWDW also took action on prior report suggestions.
   recommendations from recent
   drinking water program-            Many parts of EPA’s drinking water program experienced significant
   related evaluation reports by      developments since 2003. These included:
   the EPA Office of Inspector
   General (OIG) and others, and       •   Rule developments or revisions
   determine whether EPA has           •   Performance measure development
   initiated actions in response;      •   Drinking water security
• Track significant program            •   Source water protection
   developments; and
                                       •   Capacity development
• Identify challenges to help
                                       •   Sustainable infrastructure
   focus future evaluation efforts.
                                       •   Underground injection control
Background                             •   Logic model development
                                       •   State oversight
OGWDW, along with EPA’s                •   Analytical methods development
10 regional drinking water
programs, oversees
                                      We also noted a number of Agency actions related to recommendations
implementation of the Safe
                                      in U.S. Government Accountability Office and other evaluation reports.
Drinking Water Act for the
Nation’s 156,000 public water
                                      Still, the drinking water program faces challenges, notably limited resources,
systems. OGWDW is primarily
                                      emerging contaminants and new regulations, and system security issues.
responsible for setting and
                                      We suggest future evaluations for several areas of the drinking water program.
enforcing drinking water
                                      These reviews should allow EPA to determine how well its programs are
regulations and assisting and
                                      working and help it direct resources toward its most pressing needs. Priority
overseeing State programs.
                                      should be given to: water security-response capability, chemical security at
                                      drinking water facilities, variances/exemptions and waivers, effectiveness of
For further information,
                                      Agency funding, and the contaminant selection process. Other areas meriting
contact our Office of                 review include: inter-program linkages, Underground Injection Control-Class V
Congressional and Public Liaison      wells, transient and non-transient non-community water systems, and the recent
at (202) 566-2391.                    modernization of the Safe Drinking Water Information System. Although we
                                      are making these suggestions for focus, we make no recommendations in this
To view the full report,
click on the following link:          report.
www.epa.gov/oig/reports/2008/
20080331-08-P-0120.pdf                In its response, EPA agreed with our assessment.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL




                                          March 31, 2008

MEMORANDUM

SUBJECT:	              Summary of Recent Developments in EPA’s Drinking Water Program
                       and Areas for Additional Focus
                       Report No. 08-P-0120


FROM:	                 Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Benjamin Grumbles
                       Assistant Administrator, Office of Water


This is the final report summarizing recent developments in the Agency’s drinking water
program and areas for additional focus, conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency. This evaluation represents the opinion of the OIG
and does not necessarily represent the final EPA position. Final determinations on matters in this
evaluation will be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at this time – is $260,084.


Action Required

Since this report contains no recommendations, you are not required to respond to it. We have
no objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0830
or engelberg.dan@epa.gov; or Ira Brass, the Project Manager for this review, at
brass.ira@epa.gov or 212-637-3057.
             Summary of Recent Developments in EPA’s Drinking Water Program
                             and Areas for Additional Focus




                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1         


              Purpose ..........................................................................................................    1             

              Background ....................................................................................................       1             

              Noteworthy Achievements..............................................................................                 3             

              Scope and Methodology.................................................................................                3             


 2    EPA Addressing Prior Report Recommendations .............................................                                     4         


 3    Significant Developments Have Occurred in Drinking Water Program ...........                                                  7         


 4    Challenges Remain for Drinking Water Program ...............................................                                 15     


              Challenges .....................................................................................................     15             

              Suggested Areas for Evaluation.....................................................................                  16 

              Agency Response and OIG Comments .........................................................                           22 


 Status of Recommendations and Potential Monetary Benefits.................................                                        23     




Appendices
 A    Pertinent Prior Reports.........................................................................................             24

 B    Summary of Corrective Actions Taken or Planned on
      OIG Evaluation Report Recommendations (2003-2007) ....................................                                       27

 C    Agency Response .................................................................................................            40

 D    Distribution ............................................................................................................    41
                                Chapter 1
                                Introduction

Purpose
          We conducted a review of the U.S. Environmental Protection Agency’s (EPA’s)
          drinking water program at the request of EPA’s Office of Ground Water and
          Drinking Water (OGWDW). This review included:

             •	 A summary of the findings and recommendations from recent evaluation
                reports by the EPA Office of Inspector General (OIG), Government
                Accountability Office (GAO), and others;
             •	 Tracking of significant program developments; and
             •	 Identifying challenges to help focus future evaluation efforts.

Background
          OGWDW, along with EPA’s 10 regional drinking water programs, oversees
          implementation of the Safe Drinking Water Act (SDWA) for the Nation’s
          156,000 public water systems. OGWDW, which is part of EPA’s Office of
          Water, is primarily responsible for setting and enforcing drinking water
          regulations, as well as providing assistance and oversight for State programs. The
          Agency shares much of its drinking water protection responsibilities with States,
          tribes, and water systems. Forty-nine “primacy” States, all U.S. territories, and
          the Navajo Nation are authorized to operate the drinking water program on EPA’s
          behalf. EPA administers the program directly in Wyoming, the District of
          Columbia, and most tribal nations.

          OGWDW consists of three divisions: Standards and Risk Management, Water
          Security, and Drinking Water Protection. Responsibilities for each division
          follow.

          Standards and Risk Management Division

          Targeting and Analysis Branch – Develops different types of regulatory tools.
          These include drinking water treatment technologies, cost/benefit analysis, and
          techniques for contaminant identification and occurrence. The branch develops
          drinking water regulations for some chemical contaminants (e.g., radon, arsenic).
          The branch also oversees the process to identify new contaminants for potential
          regulation and to review existing regulations.

          Technical Support Center – Helps develop and implement drinking water
          regulations. The center also develops analytical methods, and manages the


                                      1

monitoring of unregulated contaminants and the drinking water laboratory
certification program. The center supports the multi-stakeholder “Partnership for
Safe Water” program and treatment plant optimization program.

Standards and Risk Reduction Branch – Develops drinking water regulations
for contaminants such as microbials, disinfection byproducts, and other high-
priority contaminants under the authority of SDWA Section 1412. The branch
also helps determine the extent of contaminant occurrence in drinking water.
The branch evaluates waterborne disease outbreaks and supports the development
of public health risk models. The branch analyzes economic issues and tracks
research relevant to drinking water regulations.

Water Security Division

Security Assistance Branch – Helps develop security-related tools and technical
assistance. The branch manages Federal water security grants to water utilities,
State agencies, and technical assistance providers. It also liaises with the
Department of Homeland Security in support of Homeland Security Presidential
Directive 7. The branch supervises EPA’s collection of system vulnerability
assessments and emergency response certifications, and develops outreach
materials.

Threats Analysis, Prevention and Preparedness Branch – Develops tools and
guidance for emergency response and incident planning. The branch also holds
workshops on emergency response planning. In addition, it funds and manages
the development of security-related research/technology tools. The branch
supports the sector’s response capabilities pursuant to Homeland Security
Presidential Directive 9.

Drinking Water Protection Division

Protection Branch – Implements the Public Water System Supervision (PWSS)
program. This program includes several smaller programs: operator certification,
capacity development, small systems’ technical assistance, chemical monitoring,
and the tribal program.

Prevention Branch – Implements three programs:
   •	 Source Water Protection (SWP) program (including wellhead protection
      and comprehensive State ground water protection)
   •	 Sole Source Aquifer program
   •	 Underground Injection Control (UIC) program

Infrastructure Branch – Manages the Safe Drinking Water Information System
(SDWIS) and the Drinking Water State Revolving Fund (DWSRF) program. The
branch also works to promote consumer awareness on drinking water issues
through outreach efforts and the Internet.


                            2

Noteworthy Achievements

         In the past several years, OGWDW made a significant number of changes to the
         drinking water program. We discuss these developments in detail in Chapter 3.

Scope and Methodology
         We conducted our review from July to December 2007 in accordance with
         generally accepted government auditing standards, issued by the Comptroller
         General of the United States. We reviewed and summarized the findings and
         recommendations from prior drinking water program-related evaluation reports
         (April 2003 - May 2007) issued by the EPA OIG, GAO, and other agencies and
         non-governmental organizations. Appendix A lists these reports. Our review
         included an examination of applicable laws and regulations as well as Agency
         guidance. We also considered the findings of prior Program Assessment Rating
         Tool reviews.

         We conducted interviews with representatives from EPA’s Office of Water to
         obtain an understanding of recent OGWDW program actions and potential
         program challenges. We focused on cataloging program developments that
         occurred since 2003, not evaluating the effectiveness of Agency actions. We also
         consulted the States, chemical industry, and non-governmental organizations by
         interviewing representatives from the American Chemistry Council, American
         Water Works Association, Chlorine Institute, Ground Water Protection Council,
         Rural Community Assistance Partnership, Association of State Drinking Water
         Administrators, and National Drinking Water Advisory Council (NDWAC).

         We obtained and reviewed the PWSS program logic model. We also reviewed
         OGWDW’s implementation of prior OIG evaluation report recommendations.
         We did not conduct a comprehensive review of Agency actions that were related
         to GAO and other relevant report recommendations because these responses are
         not tracked in the same manner as Agency responses to OIG recommendations.
         Yet, we were often able to use readily available information to note a number of
         related Agency actions. Our consideration of Agency actions helped us determine
         future challenges for the drinking water program. We also applied our summary
         of report findings and recommendations to OGWDW’s organizational chart as
         well as the principal outputs and outcomes in the logic model. From this, we
         identified potential areas for future evaluations. We reviewed those internal
         controls which were relevant to our objectives.




                                     3

                         Chapter 2
EPA Addressing Prior Report Recommendations

    We found that OGWDW had addressed, or is currently addressing, all
    recommendations made in drinking water program-related OIG evaluations issued
    between September 2003 and May 2007. OGWDW also took action on prior OIG
    report suggestions (e.g., the content of vulnerability assessments). The findings
    and recommendations in these OIG reports generally fall into seven areas:

       •	 Performance assessment (i.e., the analysis of program results, 

          measurement development, and implementation) 

       •	 Drinking water guidance, strategies, or regulations
       •	 Outreach/communication
       •	 Data quality concerns
       •	 Public health concerns
       •	 Resources (related to staffing, data, and infrastructure)
       •	 Drinking water security concerns

    Notable findings and recommendations are summarized below. Appendix B
    provides additional detail on the actions OGWDW has taken in response to each
    OIG report recommendation and suggestion. We incorporated any progress
    OGWDW has made regarding relevant recommendations in GAO and other
    evaluation reports into the activities listed in Chapter 3.

    Performance Assessment

    Findings and recommendations emphasized the need for OGWDW to develop a
    range of measurable program goals that assess specific program aspects, such as:

      •	 Performance indicator development to support a baseline for drinking water
         security
      •	 Periodic assessment of the laboratory certification program

    Findings and recommendations also emphasized the need for OGWDW to create
    measures that capture program results and meet annual performance goals for:

      •	 Drinking water quality
      •	 Capacity development
      •	 Source water assessments




                                4

Drinking Water Guidance, Strategies, or Regulations

This area highlights the development, appropriateness, and implementation of
drinking water guidance, strategies, and regulations.

   •	 EPA was to develop national strategies and assess implementing particular
      program aspects, such as capacity development, source water assessments,
      and drinking water quality analysis. The reports stressed identification and
      dissemination of best practices.
   •	 The reports also recommended that EPA amend guidance or regulations in
      order to conduct more meaningful annual assessments (e.g., revising
      Title 40, Code of Federal Regulations, Section 35.3515 for capacity
      development) and increase program effectiveness.
   •	 Vulnerability assessments were to adequately consider the threats 

      envisioned by the Bioterrorism Act of 2002. 


Outreach/Communication

This area involved how EPA provided drinking water information to the public,
other government agencies, non-governmental organizations, and within EPA
offices. Under consideration was:

   •	 Developing and implementing communication approaches.
   •	 Determining information dissemination relative to particular drinking water
      activities, and the extent of stakeholder involvement (e.g., community
      participation in the well construction permitting process).
   •	 Determining the type and content of information to be shared (e.g., source
      water assessments, drinking water health risks, or drinking water
      affordability with the public; and source water area locations with officials),
      and information access (e.g., utility access to information on comprehensive
      asset management).
   •	 Identifying partnership and coordination opportunities.

Data Quality Concerns

This area focused on the availability of data and data sources, and concerns about
data quality. Recommendations to the Agency included:

   •	 Determination of available data or information sources on capacity
      development, and modification of already existing data collection efforts or
      the development of new data collection processes.
   •	 Data access for small and large water utilities on water security, perhaps
      through the Water Information Sharing and Analysis Center.
   •	 Concerns about a large number of violations not being reported in the 

      SDWIS-Federal Version (“SDWIS-Fed”). 




                             5

   •	 Education about the proper procedures to follow if a laboratory conducting
      drinking water sample analysis is suspected of inappropriate or fraudulent
      procedures.

Public Health Concerns

Findings and recommendations in this area focused on the fact that:

   •	 Minimal data exists on health-related impacts.
   •	 Vulnerabilities in the drinking water sample analysis process compromise
      laboratory and data integrity and increase public risk.
   •	 Collaborative efforts between agencies could improve the identification of
      drinking water-related health outbreaks.

Resources

This area focused on the staffing, informational, and infrastructure resources that
are, or should be, available for drinking water activities. In addition to the
resource-related examples provided above, recommendations to the Agency
included:

   •	 Providing guidance to States on how to leverage technical, managerial, and
      financial resources from other Agency programs, partners, and stakeholders.
   •	 Working with Congress to allow future DWSRF set-asides to be designated
      for source water protection, including both ground water and surface water
      sources, so that State drinking water programs have access to DWSRF
      funds.
   •	 Improving coordination and access to initiatives and information on asset
      management within and across drinking water and wastewater programs to
      leverage limited resources, reduce the potential for duplication, and improve
      infrastructure management.

Drinking Water Security Concerns

In addition to the drinking water security issues discussed above in the area of
performance assessment, drinking water guidance, and data quality,
recommendations involved:

•	 Ensuring that small water utilities also have access to information provided by
   consultants to larger water utilities, and that all utilities have access to
   information on funding security enhancements.
•	 Helping water systems reduce or mitigate Supervisory Control and Data
   Acquisition vulnerabilities.
•	 Fostering collaboration between the Office of Water and the Office of
   Research and Development (ORD) on EPA’s Research Action Plan. The
   recommendations focus on the Plan’s treatment of utility vulnerability.


                             6

                        Chapter 3
Significant Developments Have Occurred in
          Drinking Water Program

  The past 5 years (2003-2007) brought significant developments to many parts of
  EPA’s drinking water program. The program issued new regulations, revised
  existing rules, and created new performance measures in several areas. Work also
  continues on at least three logic models, accompanying developments in the areas
  of drinking water security, SWP, UIC, and capacity development. While we did
  not formally evaluate the effectiveness of Agency actions, we noted progress in
  the data management arena, EPA’s oversight of State primacy agencies, and
  development of analytical methods. The following examples illustrate the most
  significant developments.

  Rule Developments or Revisions

  Since January 2006, the Office of Water has issued several new drinking water
  guidance documents and regulations to improve the quality of drinking water:

     •	 EPA Final Ground Water Rule: This rule aims to better protect public
        water systems that use ground water sources (ground water systems) from
        microbial pathogens.
     •	 Lead and Copper Rule: In October 2007, EPA revised the existing
        national primary drinking water regulations for lead and copper. The
        Agency asserts that these revisions will: (1) enhance the implementation
        of the rule in the areas of monitoring, treatment, customer awareness, and
        lead service line replacement; and (2) improve compliance with the rule’s
        public education requirements. The revisions should ensure that drinking
        water consumers receive the information they need to limit their exposure
        to lead in drinking water.
     •	 Long Term 2 Enhanced Surface Water Treatment Rule and Stage 2
        Disinfection Byproduct Rule: Together, these constitute the second phase
        of congressionally-mandated EPA rules targeted at microbial pathogens
        and disinfection by-products. These rules strengthen protection against
        microbial contaminants, especially Cryptosporidium, while reducing the
        potential health risks associated with disinfection by-products.

  EPA also recently revised several existing rules, even as it updated the Public
  Notification Rule to cover rules issued through July 1, 2006. Further, a Federal
  Advisory Committee continues to discuss revisions to the Total Coliform Rule.




                               7

Performance Measure Development

OGWDW developed additional performance measures that should enable it to
better track the program’s effectiveness in the following areas:

   •	 Source Water Measures: EPA published guidance on SWP measures in
      March 2005.
   •	 UIC Measures: OGWDW developed new UIC measures for Fiscal Years
      2005 and 2006.
   •	 Waterborne Illness Measure: This measure, presently under
      development, is to assess reduction in waterborne disease associated with
      improvements in drinking water safety. This is part of a larger effort to
      improve measuring public health benefits associated with drinking water
      regulations. EPA hopes to include the measure in its 2009-2013 Strategic
      Plan.

EPA is also developing a white paper on measures for both regulated pathogens
and chemicals.

Drinking Water Security

EPA took many actions to improve the security of our Nation’s drinking water
supply and physical infrastructure. Some noteworthy developments include:

   •    Completion of Vulnerability Assessments/Emergency Response Plans:
        Nearly all of the drinking water utilities mandated to complete
        vulnerability assessments and Emergency Response Plans have done so,
        with technical and financial assistance provided by EPA.
   •	   Activity Funding: EPA provided up to $115,000 initially for each utility
        serving more than 100,000 people to develop or revise its vulnerability
        assessment, emergency response, or operating plan; security enhancement
        plan and design; or a combination thereof. EPA has also provided at least
        $68.9 million for similar efforts at smaller utilities (serving populations of
        3,301-100,000).
   •	   Guidance Development: EPA published guidance for small, medium, and
        large water systems on completing their Emergency Response Plans.
   •	   Tools/Technical Assistance: EPA provided various tools and technical
        assistance to the water sector. Examples include: water sector security
        workshops, a Water Contaminant Information Tool, Emergency Response
        Tabletop Exercises, Voluntary Water Infrastructure Security Enhancement
        Initiative, and a Water Information Sharing and Analysis Center.
   •	   Measures: An OGWDW official reported that, in 2007, the Water Sector
        and Government Coordinating Councils formed a workgroup under the
        Critical Infrastructure Partnership Advisory Council process to develop a
        suite of national measures to assess progress the sector is making to
        enhance security and reduce risk. Based on the results of the workgroup,


                              8

       the Water Critical Infrastructure Partnership Advisory Council approved
       the use of 22 utility measures, which include 3 hazardous chemical
       measures and 3 risk reduction measures, and approved 18 “other actor”
       measures for reporting by non-utilities such as EPA, the Department of
       Homeland Security, and State government agencies. Utilities also
       obtained 12 optional measures for use in self-assessments of risk
       reduction.

Source Water Protection

OIG analysis of EPA water system data showed that over 98 percent of the
Nation’s public water systems completed their required source water assessments.
Such progress accompanied many other developments in SWP:

   •	 Source Water Collaborative: EPA joined 13 other national organizations
      in committing to work together on SWP. The collaborative pledges to
      encourage actions that:
          (1) Contain or prevent contaminants, including pesticides, fertilizer,
               industrial waste, petroleum by-products, and other runoff, from
               reaching the sources of drinking water.
          (2) Promote development patterns that limit threats to the integrity of
               lakes, rivers, ground water, water recharge areas, or other sources
               of drinking water.
          (3) Encourage matching uses of land with locations least likely to
               affect current or future sources of drinking water.
          (4) Preserve the land needed to protect the quality of current and
               future sources of drinking water.
   •	 Coordination with Clean Water Act Programs: OGWDW works with its
      partners to develop tools and training for local communities. Between
      January and March 2006, the program worked with the Association of
      Metropolitan Water Agencies on three SWP-related webcasts (Monitoring
      and Data Sharing; Land Development and Growth; and Communication,
      Regulatory, and Non-regulatory Tools). The SWP program also provided
      assistance to the Clean Water Fund, Campaign for Safe and Affordable
      Drinking Water, and Clean Water Network to develop a Community SWP
      Initiative. As part of the initiative, six workshops took place throughout
      the country in 2003-2004 to discuss tools to protect source water. A
      Stewardship Guide was also developed to help communities plan for
      protection. In 2007, EPA awarded grants to the Trust for Public Land, in
      partnership with the Association of State Drinking Water Administrators
      (ASDWA), the River Network, and the Smart Growth Leadership
      Institute, to enhance source water protection at the local and watershed
      levels by encouraging more effective collaboration and better harmony
      between various State policies and programs.
   •	 Regional Workshops: EPA’s regional offices have held workshops on
      SWP-related issues. Region 1 held three SWP workshops between April


                            9

      and June 2007, while Region 2 held a session aimed at local SWP efforts
      on May 24, 2007. Some of these workshops focused on local units of
      government, while others were directed toward State-level program
      implementation. Region 10’s April 2005 workshop concentrated on SWP
      coordination between EPA and other Federal agencies, namely the Bureau
      of Land Management and U.S. Forest Service.
   • Enhanced Coordination with the National Rural Water Association:
      EPA works to ensure that the association’s grants have a consistent
      communication/coordination protocol and clear roles for States, rural field
      staff, and EPA project officers. In addition, rural water specialists are now
      invited to attend State meetings, providing them opportunities to network
      with State and Federal agencies.
   •	 Underground Storage Tanks: A number of State and regional efforts
      took place under the 2004 memorandum of understanding between
      OGWDW and Office of Underground Storage Tanks. Such efforts
      included: more regions targeting tanks in SWP areas for inspection, and
      SWP/Underground Storage Tank programs engaging in joint outreach
      efforts. Additionally, some of the 2005 Energy Policy Act’s provisions,
      such as the requirement for secondary containment, may hold promise for
      future source water assessment and protection efforts. Underground
      storage tanks can leak petroleum or other hazardous substances into
      underground sources of drinking water.

Capacity Development

OGWDW’s recent capacity development efforts aim to ensure that States continue
to provide sufficient managerial and financial assistance to public water systems.
Capacity development is a way of structuring drinking water protection programs
to assist water systems in attaining the technical, managerial, and financial capacity
to achieve and maintain long-term sustainability. Efforts include:

   •	 Capacity Development Evaluation Tool: In November 2007, the Office
      of Water released the Capacity Development Evaluation Tool, to help
      regions evaluate State capacity development programs. OGWDW expects
      that the Tool will assist in the implementation of the National Capacity
      Development Strategic Plan.
   •	 Strategic Plan: The Office of Water published a National Capacity 

      Development Strategic Plan in January 2008. 


Sustainable Infrastructure

EPA has committed to promote practices that help reduce the potential gap
between funding needs and spending at the local and national levels. The Office
of Water has identified “four pillars” of actions to support such sustainable
infrastructure at both wastewater and drinking water facilities. Recent
developments under each of the four pillars include:



                             10

   •	 Enhancing Utility Management: In cooperation with other organizations,
      EPA issued reports on recent water utility asset management efforts. The
      Office of Water's Better Management Website contains links to documents
      and additional Web pages aimed at improving management practices
      within the water sector. In 2006, the Office of Water also entered into a
      memorandum of understanding with the Federal Highway Administration
      on asset management issues.
   •	 Saving Water Through Efficiency Measures: EPA established the
      national “Alliance for Water Efficiency.” Headquartered in Chicago, it
      serves as a clearinghouse and advocate for water efficiency research,
      evaluation, and education. EPA also established the “WaterSense”
      program to help consumers choose more water-efficient products.
   •	 Using the Watershed Approach to Foster Intra-Agency Collaboration:
      The Office of Water works with EPA’s Environmental Finance Advisory
      Board and Environmental Finance Centers to develop tools, case studies,
      and demonstration projects on innovative watershed-based financing
      strategies.
   •	 Including the Full Cost of Water in Utility Rates: EPA issued case
      studies on full cost pricing.

Underground Injection Control

SDWA charges EPA with regulating underground injection of waste to prevent
contamination of underground sources of drinking water. Since 2003, the Agency
took several actions on UIC-related matters:

   •	 Hydraulic Fracturing: Although hydraulic fracturing has been exempt
      from SDWA regulation since August 2005, it was the subject of an earlier
      Agency report. Hydraulic fracturing involves injecting fluid, under
      pressure, to facilitate the extraction of methane gas from coal seams. In
      June 2004, EPA published its evaluation of hydraulic fracturing impacts to
      underground sources of drinking water. In it, EPA determined that the
      injection of hydraulic fracturing fluids into coalbed methane wells poses
      little or no threat to underground sources of drinking water, and no further
      study was warranted. EPA did, however, pursue a voluntary agreement to
      cease the direct injection of diesel fuel into underground sources of
      drinking water for coalbed methane production. EPA finalized this
      agreement with three large hydraulic fracturing firms in December 2003.
   •	 Geologic Sequestration: EPA began to develop a framework to manage
      the underground injection of carbon dioxide (i.e., geologic sequestration)
      under the UIC program. Specifically:
           Sequestration (Technical Guidance): The Agency issued technical
           guidance on pilot geologic sequestration projects. The March 2007
           guidance provides permit writers with information on permitting




                            11

           experimental geologic sequestration wells as UIC Class V
           experimental wells.
           New UIC Program Regulations: On October 11, 2007, EPA
           announced that it plans to propose new UIC program regulations by
           July 2008. To expedite the development of these regulations,
           OGWDW made geologic sequestration one of its top priorities for
           Fiscal Year 2008. The regulations aim to ensure that there is a
           consistent and effective permit system for commercial-scale geologic
           sequestration projects.
   •	 Class I Municipal Disposal Wells: Class I wells inject hazardous and
      non-hazardous waste into deep rock formations, often thousands of feet
      below underground sources of drinking water. Florida uses Class I
      municipal disposal wells as an alternative to surface disposal of treated
      domestic wastewater. On November 22, 2005, the Federal Register
      published a revision to the Federal UIC requirements for Florida’s Class I
      municipal disposal wells. The revision allowed some wastewater facilities
      to continue injecting treated domestic wastewater into the subsurface,
      provided they first treated it more extensively than they did before.
      According to the Agency’s economic analysis, the rule change will save
      affected facilities $104.5 million in capital costs.
   •	 Drinking Water Treatment Residuals: These residuals form when water
      treatment facilities use advanced treatment processes to remove such
      contaminants as arsenic or radionuclides. Injection wells are increasingly
      being used as a means of disposal for the concentrated salts, metals, and
      radioactive and/or hazardous materials that treatment processes leave
      behind. In January 2007, the UIC National Technical Workgroup issued
      its report on injection disposal of these residuals. The workgroup made a
      number of technical recommendations aimed at bolstering the UIC
      program’s management of injected residual wastes.
   •	 National UIC Database: In December 2007, OGWDW announced the
      launch of a National UIC Database. Once it is fully populated, the
      database will provide EPA with the inventory, compliance, and
      enforcement information it needs to manage the national program.
      OGWDW expects that the database will be particularly useful for future
      oversight of geologic sequestration activities. It also hopes that the
      database will eventually reduce the existing reporting burden on States and
      EPA regions.

Logic Model Development

Logic models provide both EPA and the States with roadmaps they can use to
assess their efforts toward meeting key program performance measures. The
logic model is a visual flowchart framework that is designed to help EPA and the
States understand, measure, assess, and communicate program progress. Logic
models contain a textual description of program inputs, activities, outputs, and




                            12

short/medium/long-term outcomes. In 2006, OGWDW piloted a logic model for
the PWSS program. The pilot resulted in several additional developments:

   •	 2006 PWSS Logic Model Pilot and Performance Indicators: OGWDW
      indicated that its 2006 pilot, which involved 4 regions and 11 States, was a
      success. As a result, OGWDW plans to roll the PWSS logic model out to
      at least one State in every EPA region by April 2008. All 50 States should
      receive the PWSS logic model by 2009. The purpose of the pilot was for
      EPA and the primacy agencies to achieve an oversight relationship for
      decision making and assessing program progress.
   •	 Additional PWSS Logic Model Performance Indicators: OGWDW staff
      noted that several indicators have been added to the PWSS logic model,
      including the number of sanitary surveys/site visits that States conduct.
      EPA may add several additional indicators to the model as part of a larger
      Agency effort to eliminate program measurement gaps.
   •	 Capacity Development Logic Model: OGWDW is also developing a
      more specific logic model for the capacity development portion of the
      PWSS program.
   •	 Other Logic Models: OGWDW is developing additional logic models for
      the drinking water security and State Revolving Fund programs.

State Oversight

OGWDW measures State progress through performance measures (see
“Performance Measure Development” section above) and SDWA reporting
requirements. OGWDW uses these methods, as well as the ongoing logic model
development process (see above), to help it determine whether its State partners
are achieving desired outcomes. Recently, OGWDW enriched its oversight of
State programs through:

   •	 Increased PWSS Data Verification Audits: OGWDW directed the
      regions to increase the frequency of data verification audits from a 4- to 3
      year cycle. It also improved the methodology used to conduct the audits.

Analytical Methods Development

OGWDW is also addressing the analytical methods used to test for drinking water
contaminants. Analytical methods are those testing methods that are approved by
EPA to support drinking water monitoring to measure compliance with
regulations under SDWA. We noted the following:

   •	 Website: OGWDW is currently updating its Website on analytical
      methods.
   •	 Alternative Testing Methods: EPA proposed an expedited process for the
      approval of alternative methods. This expedited process is not yet final.
      If approved, an expedited process would allow the Agency to approve


                            13

analytical methods for contaminants it regulates under both the National
Primary and Secondary Drinking Water Regulations far more quickly than
would be possible through the traditional rulemaking process. Expedited
approval would also extend to unregulated contaminants.




                    14

                                Chapter 4
    Challenges Remain for Drinking Water Program

         While EPA has taken a number of actions aimed at enhancing drinking water
         protection, it must still contend with the challenges posed by limited resources,
         emerging contaminants/new regulations, and drinking water security needs. What
         follows is a description of these challenges, as well as suggestions for OGWDW
         on which program areas would most benefit from additional evaluation. Although
         we are making these suggestions for focus, we make no recommendations in this
         report.

Challenges
         Future drinking water protection efforts will have to contend with challenges in
         the following areas.

         Resources

         Future drinking water implementation efforts may have to proceed in a
         constrained fiscal environment. ASDWA reported that Federal funding for PWSS
         grants to States has fallen from $101 million in Fiscal Year 2004 to $99 million in
         Fiscal Year 2007, not accounting for inflation. DWSRF funding exhibits the
         same pattern. While the DWSRF was funded at $837 million in Fiscal Year 2007,
         its annual funding remains below the $1 billion authorized for the period between
         1995 and 2003, absent any accounting for losses due to inflation.

         States, as well as utilities, must also cope with considerable staff attrition. A poll
         of ASDWA board members reportedly showed attrition rates of 25-70 percent
         over the past 3 years. ASDWA expects these rates to continue at 25-50 percent
         for the next 3 years across all categories of senior, mid-management, and regular
         staff. The Rural Community Assistance Partnership, meanwhile, reported that as
         many as 50-70 percent of drinking water and wastewater facility operators will be
         retiring in the next several years. Although OGWDW is working with ASDWA
         and the Association of Boards of Certification to address operator staffing issues,
         the Agency acknowledges that replacing water system operators continues to be a
         major challenge.

         Emerging Contaminants and New Regulations

         Pharmaceuticals and personal care products pose challenges for both the
         Agency’s research and regulatory programs. While some of these products (or
         “emerging contaminants,” as they are often known) are easily broken down or



                                       15

          degrade quickly in the environment, others do not. These substances enter both
          the soil and aquatic environments through wastewater effluent, treated sewage
          sludge (biosolids), or irrigation with reclaimed water. OGWDW often lacks the
          information it needs to decide whether these contaminants should even be
          candidates for regulation. National monitoring of emerging contaminants is also
          hampered by a lack of appropriate, affordable analytical methods. Although
          EPA’s Drinking Water Program, ORD, and the U.S. Geological Survey continue
          to collect and analyze information on emerging contaminants (including
          pharmaceuticals), the Agency maintains that emerging contaminants will continue
          to pose a challenge.

          At the same time, EPA continues to issue new drinking water regulations. From
          January 2006-December 2007, EPA issued three new rules, as well as a Revised
          Lead and Copper Rule (see Table 4-1). These new rules pose an implementation
          challenge for States with limited resources.

          Table 4-1: New Federal Drinking Water Regulations (2006-2007)
                                    Regulation                          Promulgation Date
           Revised Lead and Copper Rule                                 October 2007
           Final Ground Water Rule                                      November 2006
           Long Term 2 Enhanced Surface Water Treatment Rule            January 2006
           Stage 2 Disinfection Byproduct Rule                          January 2006
          Source: OIG analysis of EPA data

          EPA plans to continue its regulatory work in 2008. EPA plans to propose a rule
          for airline water supplies as well as issue a draft regulation on geologic
          sequestration. The Agency has also stated it will make a final determination on
          whether to regulate perchlorate by the end of 2008.

          Drinking Water Security

          OGWDW faces the challenge of maintaining a “culture of security” at water
          systems in the absence of further EPA requirements. While nearly every system
          that had been required to complete a vulnerability assessment or Emergency
          Response Plan has done so, systems must continue to be involved in security
          efforts. EPA hopes that the variety of tools and technical assistance it provides to
          the water sector will help ensure systems’ continued security. Some examples of
          EPA’s security-related tools and technical assistance appear in Chapter 3.

Suggested Areas for Evaluation
          We observed that certain aspects of the drinking water program could benefit
          from additional coverage. We suggest future evaluations for the areas listed
          below, especially the five areas identified as priorities. Priority evaluation areas




                                             16

are those that intersect with the broader Agency challenges listed above, and are
noted as such.

Water Security – Response Capability
[Priority – connected to “Drinking Water Security” challenge]

OIG’s earlier evaluations focused on preparedness efforts such as vulnerability
assessments (see Appendix A). With vulnerability assessments now essentially
complete, however, more attention should be paid to system response capability.
Our review found no comprehensive examinations of whether States/utilities are
actually using their completed Emergency Response Plans in response efforts.

The few evaluations that touched on water systems’ disaster response capability
were thought provoking. A 2006 GAO report found that none of the U.S. water
systems in the St. Clair/Detroit River Corridor received spill notifications within
operators’ preferred timeframes. As EPA embarks on more response-focused
initiatives, it will be critical for the Agency to have good baseline data on system
response capabilities.

Mutual Aid and Assistance Networks are one possible topic for evaluation.
OGWDW has been working with the American Water Works Association to
develop a program that encourages utilities to share workers/equipment with
systems that have been affected by emergencies. These Water and Wastewater
Agency Response Networks are now active in 19 States. Other utilities are
participating in the “One System” program. Despite the fact that utility assistance
agreements now exist in roughly half the States, they have not yet been the
subject of a comprehensive evaluation. Previous evaluations were restricted
geographically, considering, for instance, whether networks functioned in the
wake of Hurricane Katrina.

Chemical Security at Drinking Water Facilities
[Priority - connected to “Drinking Water Security” challenge]

Chemical security issues continue to attract considerable attention on Capitol Hill.
The Congressional Research Service identified chemical security as the most
prominent drinking water issue in the last Congress. However, program
evaluations have not kept pace with congressional interest. Although GAO
published two recent reports on chemical security issues in the water sector, both
reports focused exclusively on wastewater facilities. As congressional debate
continues over whether the Department of Homeland Security’s oversight of high-
risk chemical facilities should be expanded to cover drinking water and
wastewater facilities, it is imperative that lawmakers also have access to reports
that chronicle the chemical security needs of drinking water facilities.




                             17

Variances/Exemptions and Waivers
[Priority – connected to “Resources” challenge]

We found no comprehensive evaluations on the extent to which States grant
variances, exemptions, or waivers on monitoring requirements to public water
systems. As the Agency continues to review proposed changes to its affordability
criteria, it will become increasingly important to know whether States are able to
use these and other tools that Congress provided in the 1996 SDWA
Amendments. The Agency’s request for information on the implementation
challenges States face when reviewing and issuing small system variances should
help begin this evaluation effort. We suggest that an evaluation be broad enough
to cover not only variances, exemptions, and monitoring waivers but also other
State enforcement tools, such as bilateral compliance agreements. States often
use these agreements in lieu of exemptions for certain rules. An evaluation
should also compare the frequency to which variances and exemptions are granted
for a variety of rules, including the arsenic rule.

Effectiveness of Agency Funding
[Priority – connected to “Resources” challenge]

A more concerted focus on the effectiveness of Agency funding would benefit
both EPA and its partners as they contend with resource challenges. While
OGWDW staff noted that they are working with States to measure the benefits
associated with DWSRF funding, they acknowledged that this work is not
retrospective. The Agency does provide extensive retrospective information on
the State Revolving Fund in its Annual Report, but this information tends to be
more descriptive than evaluative. The 2006 Annual Report notes, for instance,
that 69 percent of Fiscal Year 2006 monies went to small systems; it does not note
whether this 69 percent had a greater differential impact than the remaining
funding that went to larger systems. Future evaluations could investigate whether
fund grants to small systems yield greater benefits to human health and the
environment, dollar for dollar, than fund grants to comparatively larger systems.

A retrospective evaluation of the Operator Certification Expense Reimbursement
Grant program may also be beneficial. Rural Community Assistance Partnership
staff asserted that this program failed, in many instances, to reach the smallest
system operators. Operators either did not receive enough funding to attend
training events, or States ended up using unspent funds for other purposes. An
evaluation of such claims could benefit future efforts aimed at assisting small
system operators.

Contaminant Selection Process
[Future Priority – connected to “Emerging Contaminants and New Regulations”
challenge]

More evaluation is needed of the process EPA uses to select contaminant
candidates for regulation. Prior reviews have generally focused on other aspects


                            18

of drinking water regulation, such as the economics of drinking water regulation,
or the process EPA employs to select drinking water contaminants for potential
regulation. A September 2007 study, for instance, analyzed several
environmental regulations, including the Disinfection By-Products Rule, but its
focus was limited to economic concerns. EPA’s Contaminant Candidate List
(CCL) has also received attention. According to OGWDW officials, the
development of the third CCL has been influenced by recommendations from
both NDWAC and the National Academy of Sciences. EPA’s Science Advisory
Board will also review the CCL before it is finalized.

However, OGWDW agrees that the scientific portion of the regulatory decision-
making process deserves additional attention, for it is likely to be a concern for
Congress when it takes up SDWA reauthorization. In fact, two members of
Congress have asked GAO to examine the processes EPA uses to identify
drinking water contaminants for regulation. The OIG suggests that any review of
the scientific portion of EPA’s drinking water contaminant selection process not
proceed until the Agency finalizes its third CCL or completes its regulatory
determination process on the second CCL in mid-2008.

Inter-Program Linkages

Within EPA

Apart from a 2005 report documenting OGWDW’s partnership with the Office of
Underground Storage Tanks on tank inspections in source water protection areas,
our review found no recent progress reports on collaborations between OGWDW
and other EPA offices. Both Agency and non-Agency sources identified inter-
program relationships with the Office of Enforcement and Compliance Assurance
(OECA) and ORD as deserving particular attention:

   •	 OGWDW’s relationship with OECA: It is unclear whether OECA is
      adequately coordinating its efforts with OGWDW. OECA reports that it
      has “substantive, regular, and consistent” coordination with OGWDW on
      both rule development and enforcement, while other sources indicate that
      OECA’s enforcement priorities may be out of alignment with those of
      OGWDW. What is clear is that the OECA-OGWDW relationship merits a
      thorough examination. Although the OIG already plans to evaluate
      OECA’s relationships with EPA’s various media offices (e.g., Office of
      Water and Office of Air and Radiation), we suggest that the OIG
      evaluation focus on clarifying the extent to which OECA and OGWDW
      are actually coordinating their efforts.

   •	 OGWDW’s relationship with ORD: ORD acknowledges the potential
      for overlap between its research efforts and those of OGWDW. Its
      Drinking Water and Homeland Security Research Programs directly relate
      to OGWDW’s work. In fact, ORD’s National Homeland Security



                             19

                          Research Center has joined OGWDW in issuing voluntary guidance on
                          certain aspects of water security. To ensure that these offices effectively
                          coordinate their research efforts, we suggest that an evaluation be
                          conducted of those areas, both security and non-security related, with the
                          greatest potential for organizational overlap.

                Other inter-program relationships may also be worth examining. A January 2008
                OIG evaluation criticized EPA’s Office of Emergency Management for failing to
                coordinate with OGWDW on the development of an Emergency Response
                Business Plan. The report recommended that the Office expand internal EPA
                coordination and coordination with other relevant Federal, State, and local
                emergency response agencies.

                The report also contained a recommendation that focused on planning for
                chemical incidents, such as chlorine tank explosions. The Agency agrees with the
                report’s suggestion that it incorporate its knowledge of major repositories of
                existing chemicals, including chlorine when appropriate, in its future regional
                planning efforts for chemical-specific events. These efforts might benefit from
                greater collaboration between OGWDW and the Office of Emergency
                Management, since drinking water facilities often store large amounts of gaseous
                chlorine and other hazardous materials.

                Across Federal Agencies

                We also found no progress reports on inter-agency drinking water program
                collaborations. Several memoranda of understanding exist between the Office of
                Water and other, relevant, Federal agencies (see Table 4-2). However, our review
                uncovered no updates on the work conducted pursuant to these memoranda of
                understanding.

Table 4-2: Inter-Agency Drinking Water Memoranda of Understanding
         Topic                                            Signatories                           Year
Arsenic Assistance to        •   U.S. Department of Agriculture – Rural Utilities Service       2002
Small Systems                •   EPA – Office of Water
Lead in School /             •   Centers for Disease Control and Prevention                     2005
Child Care Facility          •   U.S. Department of Education
Drinking Water Supplies      •   American Water Works Association
                             •   Association of Metropolitan Water Agencies
                             •   ASDWA
                             •   National Association of Water Companies
                             •   National Rural Water Association
                             •   EPA – Office of Water
Asset Management             •   U.S. Department of Transportation – Federal Highway Admin.     2006
                             •   EPA – Office of Water
Infrastructure Funding       •   U.S. Department of Agriculture – Rural Utilities Service       1997
Coordination                 •   U.S. Department of Housing and Urban Development
                             •   EPA – Office of Water
Source: OIG analysis of EPA data




                                                 20
In addition to tracking any progress made under these memoranda of
understanding, evaluations could consider whether any other inter-agency
agreements are necessary.

UIC - Class V Wells

A 2004 Ground Water Protection Council survey estimated that there were at least
1.5 million Class V wells nationwide. Most of these wells are shallow,
unsophisticated disposal systems, such as storm water drainage wells, cesspools,
and septic system leach fields. Many of the approximately 30 types of Class V
wells are either under-regulated or not regulated at all. Given the enormity of the
Class V universe, as well as the potential impact these wells may have on
underground sources of drinking water, OGWDW maintains that this program
needs additional evaluation coverage.

EPA’s Class V Rules deserve particular attention. Although Class V wells were
the subject of an extensive Agency evaluation in 1999, EPA has since decided to
regulate large capacity cesspools and motor vehicle waste disposal wells. Now
that the compliance deadlines have passed for the Agency’s Class V Rules, it is an
opportune time to examine the extent to which States have been able to
implement these regulations.

Such an evaluation should also examine the impact that resources have on Class
V program implementation. The Ground Water Protection Council asserts that a
real decline in the size of the Federal UIC grant to States has resulted in a Class V
program that has not been fully implemented. The Council notes, anecdotally,
that this uneven implementation extends to EPA’s regulation of large capacity
cesspools and motor vehicle waste disposal wells. Absent additional funding, the
Council doubts whether geologic sequestration can be fully implemented either.

We suggest that an evaluation of the impact that resources have on Class V
program implementation be part of a larger evaluation of Federal UIC resources.
The Office of Management and Budget found, in a 2004 Program Assessment
Rating Tool review, that Federal UIC grants have generally received inadequate
evaluation coverage. The Ground Water Protection Council’s comments, along
with our own analysis, confirm that evaluation coverage of the Federal UIC Grant
program remains inadequate.

Transient and Non-Transient Non-Community Water Systems

SDWA regulates those schools and child care facilities that have their own water
supplies as non-transient, non-community water systems, while campgrounds are
often classified as transient, non-community water systems. Although GAO
considered the needs of schools and child care facilities in its 2006 report on lead
contamination in drinking water supplies, non-community water systems have



                             21

              often fallen outside of the scope of previous evaluations. Both the OIG’s 2006
              small systems report and its August 2005 progress report on SDWA
              implementation limited their interviews to representatives of community water
              systems.

              We suggest that GAO’s analysis be extended to cover the needs of other types of
              non-community water systems. Future evaluations should pay particular attention
              to the implementation challenges these systems encounter with other drinking
              water regulations, not just the Lead and Copper Rule. Such evaluations should
              also consider EPA’s 2003 survey of non-community water system infrastructure
              needs.

              SDWIS Modernization

              While ASDWA points to improved data management as one of EPA’s greatest,
              recent successes, our review found no comprehensive evaluation quantifying the
              extent to which data quality is increasing. Though OGWDW staff noted that a
              drinking water data quality report is forthcoming, this report cycle will still
              contain data that were entered before the Agency put its current data quality
              procedures in place. By late 2008, however, EPA should have enough recent data
              to permit a comprehensive evaluation of drinking water data quality. Such an
              evaluation should confirm whether the modernization of SDWIS has been
              accompanied by corresponding improvements in data quality.

Agency Response and OIG Comments

The Assistant Administrator, Office of Water, responded to the draft report on March 25, 2008
(see Appendix C). He agreed that the challenges we raised and the potential areas we suggested
for future evaluation are appropriate. Although the Office of Water believes that other areas may
also warrant evaluation, it will, nonetheless, take our suggestions into consideration as it
develops future plans.




                                           22

                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                        23

                                                                                     Appendix A

                              Pertinent Prior Reports

                                               EPA OIG
Report Title                                                   Report No.     Date
EPA Can Improve Its Oversight of Audit Followup                2007-P-00025   May 24, 2007
Promising Techniques Identified to Improve Drinking Water      2006-P-00036   September 21, 2006
Laboratory Integrity and Reduce Public Health Risks
Much Effort and Resources Needed to Help Small Drinking        2006-P-00026   May 30, 2006
Water Systems Overcome Challenges
Progress Report on Drinking Water Protection Efforts           2005-P-00021   August 22, 2005
Source Water Assessment and Protection Programs Show           2005-P-00013   March 28, 2005
Initial Promise, But Obstacles Remain
EPA Needs to Determine What Barriers Prevent Water             2005-P-00002   January 6, 2005
Systems from Securing Known Supervisory Control and Data
Acquisition (SCADA) Vulnerabilities
EPA’s Final Water Security Research and Technical Support      2004-P-00023   July 1, 2004
Action Plan May Be Strengthened Through Access to
Vulnerability Assessments
States Making Progress on Source Water Assessments, But        2004-P-00019   May 27, 2004
Effectiveness Still to Be Determined
EPA Claims to Meet Drinking Water Goals Despite Persistent     2004-P-0008    March 5, 2004
Data Quality Shortcomings
Survey Results on Information Used by Water Utilities to       2004-M-00001   January 20, 2004
Conduct Vulnerability Assessments
Impact of EPA and State Drinking Water Capacity Development    2003-P-00018   September 30, 2003
Efforts Uncertain
EPA Needs to Assess the Quality of Vulnerability Assessments   2003-M-00013   September 24, 2003
Related to the Security of the Nation’s Water Supply
EPA Needs a Better Strategy to Measure Changes in the          2003-M-00016   September 11, 2003
Security of the Nation’s Water Infrastructure




                                               24

                                                   GAO
Report Title                                                        Report No.      Date
Clean Water: Better Information and Targeted Prevention Efforts     GAO-06-639      June 2006
Could Enhance Spill Management in the St. Clair – Detroit River
Corridor
Assessment of "Environmental Protection Agency: National            GAO-06-354R     January 2006
Primary Drinking Water Regulations - Long Term 2 Enhanced
Surface Water Treatment Rule"
Assessment of "Environmental Protection Agency: National            GAO-06-350R     January 2006
Primary Drinking Water Regulations - Stage 2 Disinfectants and
Disinfection Byproducts Rule"
Drinking Water: EPA Should Strengthen Ongoing Efforts to            GAO-06-148      January 2006
Ensure that Consumers are Protected from Lead Contamination
Federal Water Requirements: Challenges to Estimating the Cost       GAO-06-151R     November 2005
Impact on Local Communities (A Memorandum to the Honorable
James M. Inhofe and the Honorable Mike Crapo)
DISTRICT OF COLUMBIA’S DRINKING WATER – Agencies                    GAO-05-344      March 2005
Have Improved Coordination, but Key Challenges Remain in
Protecting the Public from Elevated Lead Levels
Water Infrastructure: Comprehensive Asset Management Has            GAO-04-461      March 2004
Potential to Help Utilities Better Identify Needs and Plan Future
Investments
Drinking Water: Experts’ Views on How Future Federal Spending       GAO-04-29       October 2003
Can Best Be Spent to Improve Security
Deep Injection Wells: EPA Needs to Involve Communities Earlier      GAO-03-761      June 2003
and Ensure That Financial Assurance Requirements Are
Adequate



                                         Other Relevant Reports
Report Title                                 Source                               Date
Perchlorate Contamination of Drinking        Mary Tiemann, Specialist in          April 4, 2007
Water: Regulatory Issues and Legislative     Environmental Policy, Resources,     (update)
Actions                                      Science, and Industry Division,
                                             (Congressional Research Service),
Water Infrastructure Needs and               Claudia Copeland, Specialist in      March 19, 2007
Investment: Review and Analysis of Key       Resources and Environmental Policy   (update)
Issues                                       and Mary Tiemann, Specialist in
                                             Environment Policy, Resources,
                                             Science, and Industry Division,
                                             (Congressional Research Service)
Safeguarding the Nation's Drinking           Mary Tiemann, Specialist in          March 13, 2007
Water: EPA and Congressional Actions         Environmental Policy, Resources,     (update)
                                             Science, and Industry Division,
                                             (Congressional Research Service)
Improving the Nation's Water Security:       National Research Council            2007
Opportunities for Research



                                                 25

                                  Other Relevant Reports (continued)
Report Title                               Source                                 Date
Arsenic in Drinking Water: Regulatory      Mary Tiemann, Specialist in            October 5, 2006
Developments and Issues                    Environmental Policy, Resources,       (update)
                                           Science, and Industry Division
                                           (Congressional Research Service)
Safe Drinking Water Act: Issues in the     Mary Tiemann, Resources, Science,      July 19, 2006
109th Congress                             and Industry Division (Congressional
                                           Research Service)
Working Group on the Public Education      National Drinking Water Advisory       May 2006
Requirements of the Lead and Copper        Council
Rule, Recommendations to the National
Drinking Water Advisory Council
MTBE in Gasoline: Clean Air and            James E. McCarthy and Mary             April 14, 2006
Drinking Water Issues                      Tiemann, Specialists in                (update)
                                           Environmental Policy, Resources,
                                           Science, and Industry Division
                                           (Congressional Research Service)
Environmental Performance Review           Organisation for Economic              2006
(United States)                            Co-Operation and Development
Drinking Water Distribution Systems:       National Research Council              2006
Assessing and Reducing Risks
A National Assessment of Tap Water         Environmental Working Group            December 20, 2005
Quality
Recommendations of the National            National Drinking Water Advisory       June 2005
Drinking Water Advisory Council to the     Council
U.S. EPA on Water Security Practices,
Incentives and Measures
Public Water Supply Distribution           National Research Council              2005
Systems: Assessing and Reducing
Risks (First Report)
National Drinking Water Advisory Council National Drinking Water Advisory         May 19, 2004
Report on CCL Classification Process to  Council
the U.S. Environmental Protection Agency
Indicators for Waterborne Pathogens        National Research Council              2004
Recommendations of the National            National Drinking Water Advisory       July 2003
Drinking Water Advisory Council to the     Council
U.S. EPA on its National Small Systems
Affordability Criteria
Public Health Protection Threatened by     Association of State Drinking Water    April 2003
Inadequate Resources for State Drinking    Administrators
Water Programs: An Analysis of State
Drinking Water Programs Resources,
Needs and Barriers
What's on Tap? Grading Drinking Water      Natural Resources Defense Council      2003
in U.S. Cities




                                              26

                                                                                                Appendix B

Summary of Corrective Actions Taken or Planned on
OIG Evaluation Report Recommendations (2003-2007)
         “EPA Needs a Better Strategy to Measure Changes in the Security of the Nation’s Water
                   Infrastructure” (Report No. 2003-M-00016; September 11, 2003)
No.      Suggestion                                        Corrective Actions Taken or Planned
1        Develop specific, measurable goals,               The Department of Homeland Security is developing a
         objectives, and performance indicators for        core set of metrics that will be common to all critical
         its water security programs.                      infrastructure sectors while EPA continues its work on
                                                           a set of sector-specific metrics.
2        Utilize available sources of information to       An OGWDW official reported that, in 2007, a Critical
         collect and analyze data to develop a             Infrastructure Partnership Advisory Council workgroup
         baseline for water security.                      was formed to develop measures for the water sector.
                                                           Based on the results of the workgroup, the Water
                                                           Critical Infrastructure Partnership Advisory Council
                                                           approved 22 utility measures, 18 "other actor"
                                                           measures for non-utilities (e.g., EPA, Department of
                                                           Homeland Security, and State government agencies),
                                                           and 12 optional measures for utilities to use when
                                                           conducting self-assessments of risk reduction.


      “EPA Needs to Assess the Quality of Vulnerability Assessments Related to the Security of the
               Nation’s Water Supply” (Report No. 2003-M-00013; September 24, 2003)
No.      Suggestion                                        Corrective Actions Taken or Planned
1        EPA should consider including in its review       EPA assists water utilities with security measures,
         a qualitative analysis of vulnerability           though its assistance is increasingly being refocused
         assessments submitted by large utilities to       from terrorism threats to a more comprehensive all-
         determine whether they adequately address         hazards approach. Although the Agency offers
         the threats envisioned by the Bioterrorism        utilities several tools and training opportunities that
         Act. Specifically, EPA’s analysis should          address all-hazards, it continues to provide materials
         address whether the large utilities:              that emphasize terrorist threats.
         (a) identified and prioritized specific threats   In 2008, EPA will offer training to water utilities and
         – particularly terrorist scenarios; and           emergency responders on responding to intentional
         (b) assessed the full breadth of a water          contamination events. Other training provides utilities
         system’s infrastructure – particularly its        with an understanding of the National Incident
         distribution system.                              Management System and Incident Command System,
                                                           the standard organizational framework for responding
                                                           to events from a local to Federal level. EPA invested
                                                           in modeling of contaminants in distribution systems;
                                                           designed and tested a contamination warning system
                                                           under the Water Security Initiative; and intends to
                                                           expand the program to additional cities in 2008. The
                                                           Agency has already disseminated interim guidance
                                                           materials on contamination warning systems and
                                                           consequence management based on lessons-learned
                                                           from the first pilot.




                                                    27

2      If EPA’s analysis confirms our observations,    See actions under Suggestion 1 above.
       EPA should focus on amending its guidance
       to address the shortcomings identified in
       this memorandum.


         “Impact of EPA and State Drinking Water Capacity Development Efforts Uncertain”
                          (Report No. 2003-P-00018; September 30, 2003)
No.    Recommendation                                  Corrective Actions Taken or Planned
1      Develop a national capacity development         In November 2007, the Office of Water released its
       strategy that promotes T/M/F [technical,        Capacity Development Evaluation Tool to the regions
       managerial and financial] capacity in a         to help them evaluate State programs. It also
       proactive, integrated, flexible, and            published a National Capacity Development Strategic
       accountable manner throughout [the              Plan in January 2008.
       Agency's] key drinking water programs, and
       provide additional guidance and/or
       information, accordingly.
2      Revise 40 Code of Federal Regulations           See actions under Recommendation 1 above.
       35.3515 (DWSRF withholding regulations)
       to provide more specific criteria that will     In a June 1, 2005, memorandum, OGWDW outlines
       allow EPA to conduct meaningful annual          the reporting criteria the regions are to follow as they
       assessments of State capacity development       review State capacity development programs. This
       strategies. These revisions should include      memo constitutes the annual reporting guidance that
       defining the terms "developing,"                fulfills the recommendation.
       "implementing," acquiring," and
       "maintaining," as criteria for EPA to conduct
       annual assessments of State capacity
       development strategies.
3      Develop the comprehensive evaluation to         See actions under Recommendations 1 above.
       be used to assess implementation of States'
       capacity development strategies, consistent
       with differing States' needs and
       circumstances, and require the use of this
       tool by regions as part of their oversight
       responsibilities.
4a-b   4. Work with [Agency] partners and              See actions under Recommendation 1 above.
       stakeholders to:
       (a) Identify a set of common measures that
       can be used to develop and implement
       national performance goals.
       (b) Determine what common capacity
       development data and/or information
       resources are available that could be used
       to support a national capacity development
       measure, while minimizing data collection
       burdens to States and water systems.




                                                28

5a-d   5. Using the results in Recommendation 4,       See actions under Recommendation 1 above.
       develop national capacity development
       measures by:
       (a) Identifying capacity development goals 

       to be accomplished, as part of the drinking 

       water annual performance goals. 

       (b) Developing specific capacity develop
       ment measures that support the capacity

       development annual performance goals.

       (c) Either modifying already existing data 

       collection efforts or developing new data 

       collection processes for capacity

       development performance measures. 

       (d) Analyzing results of capacity 

       development performance on a national 

       basis, and reporting progress to Congress 

       and the public, as required by the Govern

       ment Performance & Results Act of 1993. 



    “Survey Results on Information Used by Water Utilities to Conduct Vulnerability Assessments”
                            (Report No. 2004-M-00001; January 20, 2004)
No.    Suggestion                                      Corrective Actions Taken or Planned
1      Ensure that small utilities have access to      OGWDW addressed this recommendation with the
       security information that large utilities       creation of the Water Information Sharing and
       received from consultants funded by EPA,        Analysis Center and its companion Water Security
       possibly by fully funding the Water             Channel, for smaller utilities. The Agency also placed
       Information Sharing and Analysis Center,        related links on its Website:
       and provide lists of other agencies from        http://cfpub.epa.gov/safewater/watersecurity/infoshari
       which utilities could obtain information.       ng.cfm
2      Ensure that water utilities have access to      EPA published a fact sheet on using the DWSRF to
       information on funding security                 fund security work in 2001, 3 years before this OIG
       enhancements, including use of the              report was published (http://www.epa.gov/safewater/
       DWSRF.                                          dwsrf/pdfs/security-fs.pdf). Since then, the Agency
                                                       has continued to mention that security projects are
                                                       eligible for State Revolving Fund assistance. It has
                                                       not received any indication that the information
                                                       currently available is not meeting the needs of
                                                       stakeholders. As EPA continues to review State
                                                       priority systems and Intended Use Plans, it finds that
                                                       States are explicitly mentioning that security-related
                                                       projects are eligible for State Revolving Fund program
                                                       assistance.
                                                       The Drinking Water Infrastructure Needs Survey, on
                                                       which DWSRF allotments are based, asks public
                                                       water systems to provide information on capital-
                                                       related security needs. This helps to highlight the
                                                       availability of funding through the DWSRF program.
                                                       The Water Security program’s Grants and Funding
                                                       page also highlights the DWSRF and Clean Water
                                                       State Revolving Fund programs as a source of
                                                       funding (see http://cfpub.epa.gov/safewater/
                                                       watersecurity/financeassist.cfm).



                                                29

3        Consider using the performance indicators       The Department of Homeland Security is developing a
         discussed above to set a baseline for water     core set of metrics that will be common to all critical
         security and measure improvements over          infrastructure sectors while EPA continues its work on
         time, particularly through the use of           a set of sector-specific metrics. EPA also has
         exercises and drills to test the security of    tabletop exercises for water systems, with more such
         water utilities.                                exercises likely under the Agency’s Draft Homeland
                                                         Security Work Plan.


       “EPA Claims to Meet Drinking Water Goals Despite Persistent Data Quality Shortcomings”
                               (Report No. 2004-P-0008; March 5, 2004)
No.      Suggestion                                      Corrective Actions Taken or Planned
1        The Agency should better account for the        The Agency has identified completeness and
         large number of violations that aren't          timeliness of data as important issues affecting data
         reported in the SDWIS Federal Version.          quality. It reviews State data to ensure that data
                                                         quality is addressed. During both Fiscal Years 2005
                                                         and 2006, the Agency conducted 15 on-site data
                                                         verification reviews that compare the public water
                                                         system data in State files and databases with data in
                                                         SDWIS, an increase over previous years. EPA is
                                                         developing a new electronic data verification tool that
                                                         will allow all States using SDWIS/STATE to quickly
                                                         perform electronic data verifications. In combination
                                                         with the on-site reviews, the OIG expects that the tool
                                                         will allow an increase in the number of annual data
                                                         verifications and also allow for informal checks of
                                                         State data.
2        In the future, the Agency should move           EPA has adopted a probabilistic approach to assess
         toward employing an altogether different        data quality through the data verification process.
         methodology for reporting performance for       However, while data quality objectives can be based
         its drinking water quality Annual               on a probabilistic approach, public health objectives
         Performance Goal.                               are best addressed through a census approach.


    “States Making Progress on Source Water Assessments, But Effectiveness Still to Be Determined”
                               (Report No. 2004-P-00019; May 27, 2004)
No.      Recommendation                                  Corrective Actions Taken or Planned
2-1      Continue development and establishment of       The Office of Water issued final measures guidance
         source water assessment and protection          on March 7, 2005 ("National Water Program
         measures that better capture the program's      Guidance - State and Federal Source Water
         results. In the EPA/State workgroup             Assessment and Protection Program Measures -
         discussions to finalize the source water        Final Reporting Guidance”). See Strategic Target F
         assessment and protection measures and          and Related Program Assessment Measures – Fiscal
         reporting requirements, we recommend that       Years 2006-2008.
         EPA revisit the State agency concerns
         raised in this report, solicit and evaluate
         alternatives, and resolve the concerns to the
         satisfaction of the group.




                                                 30

2-2    Given the uncertainty as to what assessment        On April 4, 2005, the Office of Water issued a
       information can and should be released to          memorandum establishing a policy to balance
       the public, and with the limitations in light of   security concerns and diverse State information
       recent security concerns, continue to              handling requirements with public health goals,
       develop and issue guidance to the States on        right-to-know requirements, and other program and
       what assessment information is appropriate         statutory requirements.
       to release to the public and by what means
       different types of information should be
       distributed.


    “EPA’s Final Water Security Research and Technical Support Action Plan May Be Strengthened
       Through Access to Vulnerability Assessments” (Report No. 2004-P-00023; July 1, 2004)
No.    Recommendation                                     Corrective Actions Taken or Planned
1      ORD immediately request, and Office of             This recommendation was largely addressed to ORD.
       Water immediately grant to ORD officials           A followup on ORD’s response is outside the scope
       responsible for developing, prioritizing, and      of this report.
       implementing critical water security research
       projects, access to vulnerability
       assessments provided by utilities. Once
       granted access, appropriate ORD officials
       should review the vulnerability assessments
       to determine the extent to which EPA’s
       Research Action Plan addresses utilities’
       most significant vulnerabilities.
2      If ORD wishes to use a contractor for the          See above.
       vulnerability assessment review relating to
       EPA’s Research Action Plan, ORD should
       immediately request access to a sample of
       vulnerability assessments to enable it to
       more effectively formulate questions for
       contractor review, and Office of Water
       should expedite a contract amendment to
       have the contractor address ORD’s
       additional questions.




                                                 31

      “EPA Needs to Determine What Barriers Prevent Water Systems from Securing Known
              Supervisory Control and Data Acquisition (SCADA) Vulnerabilities”
                         (Report No. 2005-P-00002; January 6, 2005)
No.   Suggestion                                        Corrective Actions Taken or Planned
1     EPA to identify impediments preventing            In January 2005, EPA released a suite of
      water systems from successfully reducing or       “Emergency Response Tabletop Exercises” for
      mitigating SCADA vulnerabilities, and take        drinking water and wastewater systems, with one
      steps to reduce those impediments.                module directed at SCADA assessment issues.
                                                        EPA co-funded a project with the Department of
                                                        Homeland Security called the Cyber Security Self
                                                        Assessment Tool for Water. Distribution and
                                                        licensing agreements are being negotiated, but the
                                                        tool should be available to water and wastewater
                                                        utilities in 2008.
                                                        In September 2007, EPA worked with the
                                                        Department of Homeland Security and the major
                                                        water associations to securely distribute a bulletin to
                                                        the water sector about cyber vulnerability and
                                                        corresponding mitigation procedures.
                                                        On September 20, 2007, a one-day strategy meeting
                                                        took place in San Jose, California, hosted by the
                                                        American Water Works Association, with EPA and
                                                        the Department of Homeland Security participating.
                                                        The meeting began the work of developing a cyber
                                                        security strategy/road map for the water sector,
                                                        similar to what was done for the energy sector.
                                                        Results of that meeting were presented to the Water
                                                        Sector Coordinating Council and Water Government
                                                        Coordinating Council on October 30, 2007, and the
                                                        Water Sector Coordinating Council agreed to assign
                                                        some members to continue working on the roadmap.
2     EPA to develop SCADA security measures            Draft utility measures have been proposed within the
      to track the effectiveness of security efforts.   context for the Department of Homeland Security-
                                                        instituted partnership model (private/public
                                                        partnership). They are in the process of being
                                                        refined and approved by the Water Sector
                                                        Coordinating Council and Water Government
                                                        Coordinating Council.




                                                 32

 “Source Water Assessment and Protection Programs Show Initial Promise, But Obstacles Remain”
                          (Report No. 2005-P-00013; March 28, 2005)
No.   Recommendation                                     Corrective Actions Taken or Planned
3-1   Encourage States that have not yet released        EPA and 13 organizations, including State agencies,
      their assessments to the public to target not      water utilities, and environmental groups, formed the
      only utilities, but local governments, councils,   Source Water Collaborative on February 17, 2006.
      planners, building and zoning officials, and       The parties agreed to share information, develop
      other stakeholders. States that have               recommendations on methods for protecting source
      released the assessments should be                 water, and disseminate these recommendations to
      encouraged to provide copies of the assess         key decision makers on land use.
      ments to these additional stakeholders
      during the protection phase of the program.
      States should also be encouraged to the
      greatest extent possible to follow
      assessment distribution with interpretation
      and direction on how to take the next step.
      States can help by identifying opportunities
      for technical assistance and financing for
      protection planning and implementation.
4-1   4-1. In order to improve the prospect for the      EPA’s 2006-2011 Strategic Plan includes, as a
a-c   Source Water Assessment and Protection             strategic target, the percentage of communities that
      Program’s success in the future and its            are “substantially implementing” source water
      sustainability:                                    protection strategies. Since FY 2006, OW has
      a. Issue a public statement to re-affirm and       included program measures that support this target.
      make it clear to States that this program is a     EPA is continually working with States and their
      priority, that the source water assessments        national organizations to provide direct assistance,
      are beneficial, and that EPA is dedicated to       provide training, and transfer ideas across States.
      continuing to support the source water             The Agency planned to release a letter asserting that
      protection phase of the program.                   source water protection is an important part of the
      b. Delineate the State role in this next phase     watershed approach and to encourage States to use
      of the program, see to it that the States          source water assessments for protection as intended
      prioritize source water protection, and            by the SDWA Amendments of 1996.
      provide feedback on the State's protection         EPA will continue to highlight to States guidance on
      strategies as they develop. In addition,           funding options for source water protection. The
      delineate future plans for program                 Office of Water’s Websites have many documents on
      enhancement, such as updating assessment           this topic.
      information and addressing data gaps.
      c. Provide guidance to States on how to
      leverage financial and technical resources
      from other EPA programs, partners, and
      stakeholders.
4-2   Continue to work with Congress to allow            Congress has not requested technical assistance on
      future DWSRF set-asides to be designated           how it could modify the DWSRF set-asides since the
      for "source water protection," which would         OIG issued its report. However, OGWDW believes it
      include both ground water and surface water        can achieve most of the same objectives by clarifying
      sources.                                           State guidance to provide expanded State flexibility
                                                         for using DWSRF set-asides for source water
                                                         protection and capacity development; related
                                                         guidance was published in October 2006.




                                                33

4-3   Continue to work with the National Rural          EPA continues to work with the National Rural Water
      Water Association to remove barriers to           Association on wellhead and source water protection.
      Association-State coordination and                EPA will work closely with the national organization
      collaboration on source water protection.         and with each State program, as practicable, to
      Clearly delineate and communicate the             ensure coordination among technicians and State
      Association's role in source water protection     source water protection staff in each State.
      to the Association and the States and follow
      up with States on their satisfaction with State
      chapter cooperation.
4-4   Work with regions and States to determine         In spring 2005, several documents were produced
      how best to disseminate locally-applicable        with EPA financial support. The Trust for Public Land
      best practices at the State and local levels      and the Environmental Finance Center Network
      for:                                              published final reports on local source water
      (a) contaminant source management                 protection demonstrations. These reports include
      strategies and                                    extensive recommendations for States and localities
      (b) how to motivate and sustain local level       on what works and what does not. A document will
      action. In addition, continue to monitor          likely be published that describes these lessons and
      protection programs and identify common           offers some recommendations for State and local
      elements of success for promotion in future       source water protection programs.
      protection efforts.                               In September 2006, the Agency published a
                                                        “How-To” manual on updating local source water
                                                        assessments.
4-5   In coordination with regions and States,          The Office of Water has worked, and continues to
      identify points of integration among              work, within the Office, with other EPA program
      environmental programs and delineate steps        offices, and with other Federal agencies, to integrate
      to implement program integration plans.           environmental programs. In addition, it has
                                                        encouraged States to do the same. The Office of
                                                        Water has worked vigorously for the past few years
                                                        to integrate the Clean Water Act with SDWA
                                                        standards, assessments, and monitoring.
4-6   Assist regions and States in identifying          See actions under Recommendation 4-5 above.
      appropriate State and Federal agencies with
      activities that impact drinking water quality,
      providing appropriate Agency officials with
      information on locations of source water
      areas and potential impacts to water quality,
      and facilitating cooperation among these
      agencies to mitigate these impacts and
      further drinking water protection.
4-7   Continue to engage the 1999 Federal               OGWDW is pursuing new projects with the Office of
      Multi-Agency Source Water Agreement               Water, with the Office of Underground Storage Tanks
      participants and determine how agencies are       in the Office of Solid Waste and Emergency
      contributing. Based on State and regional         Response, with the Forest Service (in the U.S.
      needs, identify additional partnership            Department of Agriculture), with the Department of
      opportunities and determine how                   Energy, and with numerous other agencies where
      participation can be further enhanced in the      source water protection is a part of other initiatives
      protection phase of the Source Water              (e.g., Watershed Protection, Smart Growth).
      Assessment and Protection Program.




                                                34

                       “Progress Report on Drinking Water Protection Efforts”
                            (Report No. 2005-P-00021; August 22, 2005)
No.   Recommendation                          Corrective Actions Taken or Planned
3-1   Identify methods to improve the         The revised Lead and Copper Rule addressed this
      Consumer Confidence Report through      recommendation as well as NDWAC’s May 2006 report
      the NDWAC or other work group.          recommendation. The new rule requires that educational
                                              statements about lead in drinking water be included in all
                                              Consumer Confidence Reports.
4-1   Continue to develop measures for        In February 2006, OGWDW developed the PWSS logic
      individual SDWA provisions like         model and performance indicators for the PWSS program.
      capacity development. We                The 2006 logic model pilot involving 4 regions and 11 States
      encourage the Assistant Administrator   was a success. As a result, OGWDW plans to roll the
      for Water to support the drinking       PWSS logic model out to at least one State in every EPA
      water program's efforts to develop      region by April 2008. It hopes to roll-out the logic model to
      indicators based on a logic model for   all 50 States by 2009.
      the PWSS Program.


      “Much Effort and Resources Needed to Help Small Drinking Water Systems Overcome
                      Challenges” (Report No. 2006-P-00026; May 30, 2006)
No.   Recommendation                          Corrective Actions Taken or Planned
2-1   Direct EPA to work with States to       EPA will continue to research and publicize examples of
      identify successful approaches for      innovative State use of set-asides and loans to assist small
      working with small systems in the       systems, with a special focus on helping them achieve
      DWSRF program.                          compliance with the revised arsenic rule and other new
                                              regulatory requirements. EPA will also continue to support
                                              sessions that have a small system focus at the annual State
                                              Revolving Fund workshop convened by the Council of
                                              Infrastructure Financing Authorities.
3-1   Direct OGWDW to work closer with        OGWDW has convened regional and national capacity
      States to identify and compile small    development workshops. It will continue to have annual
      system best practices and establish a   planning meetings with recipients of EPA's Small System
      method for disseminating the            Technical Assistance Center grants and other technical
      information so that limited resources   assistance providers to share information about its
      to assist small systems can be          Technical Assistance Centers. The 2006 ASDWA Annual
      maximized.                              Conference had two sessions focusing on small systems
                                              issues: (1) Small Systems Solutions, and (2) Improving
                                              Performance in Capacity Development and Operator
                                              Certification. OGWDW has also initiated semi-annual
                                              conference calls with ASDWA’s Small Systems Committee,
                                              as well as incorporated a section on innovations and best
                                              management practices into the Capacity Development
                                              Program Evaluation Tool that was released in November
                                              2007. EPA co-hosted a pre-conference workshop at the
                                              2007 and 2008 annual conferences of the Association of
                                              Boards of Certification. These workshops were supposed to
                                              stimulate dialogue on solutions for retaining and recruiting
                                              water system operators.




                                              35

4-1     Develop and implement approaches          Targeted guides and other products from the Utilities Team
        to improve communication with small       are always reviewed by stakeholders, including small
        systems so that targeted guidance is      systems, when possible, prior to finalization. Various
        received and understood.                  approaches (including piloting guidance documents to
                                                  ensure that operators are receiving information in an
                                                  understandable format) are assessed to gather additional
                                                  feedback directly from small systems on how useful the
                                                  capacity development tools are, as well as whether any
                                                  additional tools need to be developed. The Agency will
                                                  develop an improved Internet site to provide EPA
                                                  information to small systems and links to other third party
                                                  providers who also assist small systems. OGWDW plans to
                                                  work with stakeholders on these improvements. Its
                                                  response letter contains an updated list of tools to assist
                                                  States and small systems.
5-1     Continue the collaborative effort with    EPA will continue to work with the Centers for Disease
        the Centers for Disease Control and       Control and Prevention on activities related to identification
        Prevention to improve the system of       and reporting of drinking water-related health outbreaks as
        identifying drinking water-related        the Centers for Disease Control and Prevention moves
        health outbreaks.                         toward replacing a paper-based outbreak reporting system
                                                  with an electronic-based system. In 2007, the Office of
                                                  Water was to work with the Centers for Disease Control and
                                                  Prevention and the Council of State and Territorial
                                                  Epidemiologists to conduct a workshop focused on detection
                                                  and investigation of outbreaks. The Office of Water is also
                                                  working with the Centers for Disease Control and
                                                  Prevention, and ORD, on a number of grant-funded
                                                  research projects focused on surveillance. Several projects
                                                  have been funded to date; expected completion is within 2
                                                  to 4 years.




      “Promising Techniques Identified to Improve Drinking Water Laboratory Integrity and Reduce
                  Public Health Risks” (Report No. 2006-P-00036; September 21, 2006)
No.     Recommendation                                      Corrective Actions Taken or Planned
1       Prepare laboratory certification officers for the   OGWDW provided participants in the September
        conditions they will face in testing laboratories   2007 Drinking Water Laboratory Certification
        associated with fraud by applying the following     Officer courses (Chemistry and Microbiology) a
        promising techniques:                               copy of the OIG report prior to attending. A
        (a) Promote training and education regarding        summary of the OIG report and Office of Water
        fraud and                                           Action Plan was presented during both courses.
        (b) Integrate fraud awareness into laboratory       Comments were also invited from participants
        certification training.                             regarding laboratory fraud issues, as well as
                                                            approaches to address them. Agendas and
                                                            handouts for both courses are available upon
                                                            request. OGWDW indicated it will continue this
                                                            action annually at both courses, involving fraud
                                                            experts as they are available.




                                                  36

2   Ensure that all individuals within OGWDW,            OGWDW addressed all of these items in an
    regions, and States who have oversight               e-mail to the Regional Certification Officers on
    responsibility for laboratories analyzing drinking   January 26, 2007. The Office’s response was
    water samples are educated and proficient in         also included in the materials distributed to
    the proper procedures to follow should a             participants in the September 2007 Certification
    laboratory be suspected of inappropriate or          Officer Training. Copies of these materials are
    fraudulent procedures. Specifically:                 available upon request.
    (a) Distribute written guidance and appropriate
    contacts at the suggested course for State
    certification officers; copies of the guidance
    should also be distributed to OGWDW regions
    and Technical Support Center staff,
    (b) Establish the use of the EPA fraud hotline for
    environmental testing laboratories; certified and
    accredited laboratories should be provided with
    appropriate OECA or OIG contacts to report
    possible misconduct,
    (c) Work with OECA to determine if the form
    connected to the online violation reporting tool
    on EPA’s Website could be used for laboratory
    fraud.
3   Create and use a training course, exam, and          Radiochemistry training took place with
    standard methods for the certification of            Pennsylvania in December 2006 and Arizona in
    laboratories analyzing drinking water samples        February 2007. OGWDW also participated in the
    for radiochemical contaminants.                      radiochemistry training offered by the Office of Air
                                                         and Radiation in September 2007 and initiated
                                                         discussions with the Office’s management
                                                         regarding the possibility of expanding the course
                                                         to a wider group of Certification Officers.
                                                         OGWDW continues to fund and coordinate
                                                         radiochemistry audits of Principal State
                                                         Laboratories by contract experts, in support of
                                                         regional programs that currently have limited
                                                         radiochemistry expertise. OGWDW is in the
                                                         process of developing the addendum to the
                                                         “Manual for the Certification of Laboratories
                                                         Analyzing Drinking Water” to address this
                                                         recommendation further.




                                             37

4   Encourage certification officers to use the         OGWDW discussed these items during the
    following promising techniques, as noted in         aforementioned presentations at the Drinking
    Chapter 3, already developed by other groups in     Water Laboratory Certification Officer courses for
    laboratory oversight. In addition, encourage        Chemistry and Microbiology. OGWDW indicated
    certified or accredited laboratories to engage in   that it will continue this action annually at both
    techniques b and c:                                 courses. OGWDW is also in the process of
    (a) Enhance on-site and follow up audits to         developing the addendum to the “Manual for the
    include techniques to identify and deter            Certification of Laboratories Analyzing Drinking
    inappropriate procedures and fraud,                 Water” to address this recommendation further.
    (b) Use data validation and verification
    techniques,
    (c) Use analyst notation and sign manual
    integration changes to data,
    (d) Review raw electronic data and use
    electronic data analysis/tape audits,
    (e) Review inventory of laboratory supplies,
    (f) Include double blind proficiency testing
    samples reform (or a combination of double
    blind and split sample analysis),
    (g) Conduct data accuracy reviews.
5   Reduce uncertainty associated with the integrity    OGWDW addressed this subject during the
    of drinking water laboratories as well as the       on-site program reviews at Region 8 in January
    occurrence of inappropriate procedures and          2007 and at Region 10 in March 2007. It was also
    fraud. At least every 3 years, perform a periodic   to be addressed during the on-site review at
    assessment to:                                      Region 6, scheduled for October 2007.
    (a) Review the drinking water sample analysis       In addition, OGWDW held monthly conference
    process for the existence of vulnerabilities,       calls with the Regional Certification Officers in
    (b) Assess the extent to which inappropriate and    December 2006 and March 2007. Lastly,
    fraudulent procedures are occurring (using          OGWDW included targeted questions regarding
    techniques described in Recommendation 4),          techniques that were used for each of the issue
    (c) Assess the laboratory certification program     areas in the 2007 Annual Regional Laboratory
    as well as specific protection processes and        Certification Program Questionnaire. OGWDW is
    techniques for effectiveness. Explore incentives    currently compiling and assessing the results from
    to encourage States and laboratories to adopt       this questionnaire.
    innovative practices. As part of this periodic
    assessment, consider adjusting laboratory and
    certification method requirements and resource
    allocations if needed.
6   Set up a work group – including representatives     As noted above, targeted questions regarding
    from regions, States and laboratories – to          vulnerabilities in sample collection were included
    review the sample collection requirements and       in the 2007 Annual Regional Laboratory
    seek opportunities to minimize vulnerabilities.     Certification Program Questionnaire. OGWDW is
                                                        currently compiling and assessing the results from
                                                        this questionnaire. OGWDW also addressed
                                                        sample collection issues in an October 2007
                                                        presentation to ASDWA.




                                            38

7   Meet with Agency contract officers and the         Representatives of OGWDW, the EPA Office of
    Office of Policy, Economics, and Innovation to     Administration and Resources Management, and
    determine if appropriate procurement guidance      the Department of Defense met in July 2007 to
    for EPA, States, and public water systems          discuss this subject. OGWDW and the Office of
    (including language similar to what is under       Administration and Resources Management are
    development by the Department of Defense)          currently reviewing the draft Department of
    specifying a list of prohibited practices and      Defense procurement policy for possible
    possible incentives for laboratories or analysts   application/adaptation to the drinking water
    that meet higher integrity standards can be        program.
    developed to offset economic pressures to cut
    corners.
8   Provide the following training programs and        See actions listed under Recommendation 4
    guidance information for laboratories, as noted    above.
    in Chapter 3, that analyze drinking water
    samples:
    (a) All certified laboratories should have an
    ethics policy/program, and
    (b) Encourage certified laboratories to
    implement a fraud detection and deterrence
    policy/program.




                                             39

                                                                                    Appendix C

                                Agency Response

MEMORANDUM

SUBJECT:       Summary of Recent Developments in EPA’s Drinking Water Program and Areas
               for Additional Focus, Assignment No. 2007-000952, Draft Report

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Dan Engelberg
               Director of Program Evaluation
               Office of the Inspector General

       Thank you for the opportunity to comment on your Office’s draft report, Summary of
Recent Developments in EPA’s Drinking Water Program and Areas for Additional Focus. The
Office of Water (OW) appreciates the effort of Office of Inspector General (OIG) to respond to
our request for a capping study to evaluate the range of drinking water program assessments that
have been carried out over the past several years. My staff has provided technical and editorial
comments on the text of the report under separate cover.

        As your draft report describes, the program has undertaken a number of activities, some
of which respond to recommendations made by the IG, Government Accountability Office and
other organizations. We will continue to carry out efforts to address concerns raised in those
reports and to carry out activities to strengthen the national program.

       We believe that both the challenges you raised and the potential areas for future
evaluation are appropriate. While we believe there are other areas that also warrant evaluation in
the program, we will take your suggestions under consideration as we develop future plans.

       Thank you again for the opportunity to comment on the draft report. If you have
questions regarding our comments, please contact Cynthia C. Dougherty, Director, Office of
Ground Water and Drinking Water, at (202) 564-3750.




                                            40

                                                                               Appendix D

                                     Distribution

Office of the Administrator
Assistant Administrator, Office of Water
Deputy Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water
Deputy Director, Office of Ground Water and Drinking Water
Director, Drinking Water Protection Division, Office of Ground Water and Drinking Water
Director, Standards & Risk Management Division, Office of Ground Water and Drinking Water
Director, Water Security Division, Office of Ground Water and Drinking Water
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Water
General Counsel
Deputy Inspector General




                                          41

